No. 21-146
IN THE
SUPREME COURT OF THE UNITED STATES
CHRISTINE CLIFFORD (AS ADMINISTRATOR OF
THE ESTATE OF JOHN CLIFFORD), et al.,
Petitioners,
v.
RICHARD FEDERMAN, et al., Respondents.
___________________________________
On Petition for a Writ of Certiorari to the United
States Court of Appeal for the Eleventh Circuit
__________________________________
BRIEF IN OPPOSITION TO PETITION FOR A
WRIT OF CERTIORARI FOR RESPONDENTS
TODD GUTHRIE AND TECHCXO, LLC
SWIFT, CURRIE, McGHEE & HIERS, LLP
Roger E. Harris # 241120 *
1355 Peachtree Street, NE
Suite 300
Atlanta, Georgia 30309
(404) 874-8800
Roger.harris@swiftcurrie.com
Attorney for Respondents Todd Guthrie and
TechCXO, LLC
* Counsel of Record

LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

COUNTERSTATEMENT OF QUESTION
PRESENTED
This case does not involve new or novel issues.
It does not involve a question of law concerning a
division between circuits or a departure from the
precedent set forth by this Court. Instead, it involves
an all-too-common practice that has plagued the
courts for decades. The issue of shotgun pleadings,
i.e., the practice of throwing all conceivable claims
against all conceivable defendants against the
proverbial wall to see what sticks, is pervasive and
has been consistently handled by federal courts
around the country for decades. This case is simply
another example of a litigant “cough[ing] up an
unsightly hairball of factual and legal allegations,
stepp[ing] to the side, and invit[ing] the defendants
and the Court to pick through the mess and
determine if plaintiffs may have pleaded a viable
claim or two.” Gurman v. Metro Housing and
Redevelopment Authority, 842 F.Supp.2d 1151, 1153
(D. Minn. 2011).
Remarkably, despite orders from two District
Court judges and the United States Court of Appeals
for the Eleventh Circuit finding that the Petitioners’
Complaint
and
Amended
Complaint
were
egregiously procedurally deficient and failed to
provide adequate notice to the Respondents of the
claims made against them and the facts supporting
those claims, Petitioners now seek the review of this
Court, hoping that such review will provide the
opportunity to proceed with their convoluted and
i

disjointed claims. Petitioners seek yet another
chance to amend their Complaint, despite that the
District Court provided Petitioners with clear and
detailed guidance as to how to properly amend their
complaint in order to achieve that very same goal,
which the Petitioners wholly ignored.
This Court recently denied a Petition for Writ
of Certiorari on shotgun pleading issues in the
Eleventh Circuit, in Huong L. Tran and Richard W.
Hazen, Petitioners v. City of Holmes Beach, Florida;
City Officials in Official Capacity; Florida
Department
of
Environmental
Protection;
Department
Officials
in
Official
Capacity,
Respondents, 2021 WL 1725178 (Mem), (U.S., May 3,
2021) (cert. denied). For the reasons outlined below
with respect to shotgun pleadings, this Court should
reach the same decision and deny Certiorari in this
Petition now before it.

ii

CORPORATE DISCLOSURE STATEMENT
Pursuant to Federal Rule of Appellate
Procedure 26.1 and Supreme Court Rule 29.6,
TechCXO, LLC certifies that it has no parent
corporation and no public corporation owns 10% or
more of its stock.

iii

TABLE OF CONTENTS
COUNTERSTATEMENT OF QUESTION
PRESENTED ........................................................... i
CORPORATE DISCLOSURE STATEMENT ....... iii
TABLE OF CONTENTS ........................................ iv
TABLE OF AUTHORITIES ................................... v
STATEMENT OF THE CASE ................................ 1
REASONS FOR DENYING CERTIORARI ........... 8
THE ELEVENTH CIRCUIT FOLLOWS AND
APPLIES THE STANDARDS SET FORTH
BY FEDERAL RULES OF CIVIL PROCEDURE
8, 10, 12 AND THE TENETS OF BELL
ATLANTIC CORP. V. TWOMBLY AND
ASHCROFT V. IQBAL; THUS ITS HOLDINGS
DO NOT CONFLICT WITH THE FEDERAL
RULES OF CIVIL PROCEDURE OR THE
PRIOR DECISIONS OF THIS COURT ................. 9
THE PETITIONERS WERE AFFORDED AN
OPPORTUNITY TO CORRECT THE
DEFICIENCIES IN THEIR COMPLAINT,
BUT FAILED TO DO SO; THEREFORE,
DISMISSAL OF THE AMENDED
COMPLAINT WAS PROPER ............................... 19
CONCLUSION ...................................................... 22
iv

TABLE OF AUTHORITIES
CASES
America’s Best Inns, Inc. v. Best Inns of Abilene, L.P.,
980 F.2d 1072 (7th Cir. 1992) ........................ 22
Ashcroft v. Iqbal,
556 U.S. 662 (2009) ............................... passim
Bell Atlantic Corp v. Twombly,
550 U.S. 544 (2007) ............................... passim
Cincinnati Life Ins. Co. v. Beyrer,
722 F.3d 939 (7th Cir. 2013) ............... 10-11, 20
Destfino v. Reiswig,
630 F.3d 952 (9th Cir. 2011) .......................... 21
Dietz v. Bouldin
136 S. Ct. 1885 (2016) ................................... 15
Gurman v. Metro Housing and Redevelopment
Authority,
842 F.Supp.2d 1151 (D. Minn. 2011) ......... i, 16
Hart v. Salois,
605 Fed.Appx. 694 (10th Cir. 2015) ............... 20
Jackson v. Bank of Am., N.A.,
898 F.3d 1348 (11th Cir. 2018) ...................... 21
Knox v. First Sec. Bank of Utah,
196 F.2d 112 (10th Cir. 1952) ........................ 12
v

Kuehl v. F.D.I.C.,
8 F.3d 905 (1st Cir. 1993) ............................... 17
Leatherman v. Tarrant Cnty. Narcotics Intelligence
& Coordination Unit,
507 U.S. 163 (1993) ....................................... 17
Lee v. Ohio Education Association,
951 F.3d 386 (6th Cir. 2020) .......................... 17
McNamara v. Brauchler,
570 Fed.Appx. 741 (10th Cir. 2014) ............... 17
Nat’l Hockey League v. Metropolitan Hockey Club,
Inc.,
427 U.S. 639 (1976) ....................................... 19
Spiller v. U.S.V. Laboratories, Inc.,
842 F.2d 535 (5th Cir. 1988) ..................... 19-20
Stanard v. Nygren,
658 F.3d 792 (7th Cir. 2011) .....................17, 20
Tran v. City of Holmes Beach,
2021 WL 1725178 (Mem)
(U.S. May 3, 2021) .................................... ii, 8-9
U.S. ex rel. Garst v. Lockheed-Martin Corp.,
328 F.3d 374 (7th Cir. 2003) .......................... 12
Valkalis v. Shawmut Corp.,
925 F.2d 34 (1st Cir. 1991) ............................. 20

vi

Vibe Micro v. Shabanets,
878 F.3d 1291 (11th Cir. 2018) ...................... 21
Wagner v. First Horizon Pharmaceutical Corp.,
464 F.3d 1273 (11th Cir. 2006) ...................... 15
Weiland v. Palm Beach County Sheriff’s Office,
792 F.3d 1313 (11th Cir. 2015) ............... 11, 12
Williamson v. Columbia Gas & Elec. Corp.,
186 F.2d 464 (3d Cir. 1950) ........................... 12
RULES
Sup. Ct. Rule 10 ......................................................... 8
Fed. R. Civ. P. 8 ................................................ passim
Fed. R. Civ. P. 10 .............................................. passim
TREATISES
5A Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure § 1326 (4th ed. 2021) .......... 16

vii

STATEMENT OF THE CASE
Procedural Background
On May 3, 2018, Petitioners filed their
Complaint in the Northern District of Georgia. The
Complaint, which was 195 pages long, contained an
unnumbered “Preliminary Statement” that was more
than 6 pages long and contained an additional 578
numbered paragraphs. The first 312 numbered
paragraphs identified the parties and contained the
factual allegations. Thereafter, Petitioners asserted
fifty (50) counts against forty-two (42) Defendants
(now Respondents).
In the Complaint, the claims against any
particular Respondent were not clear. For instance,
in Count I of the Complaint, Petitioners incorporated
the prior 312 paragraphs by reference, alleged that
“Federman's, Johnson's, GMC’s, Arnold's, Guthrie's,
TechCXO's, Kostensky's, Su’s and Cascade’s actions,
conduct, inactions and omissions set forth above
constitute breach of their fiduciary duties of loyalty
to plaintiffs as GMC shareholders, convertible note
holders and investors,” and alleged that Petitioners
would be damaged as a result.
However, the
particular acts or omissions of each Respondent,
many of whom were separately represented, were
not clear. The problem then compounded itself
exponentially. In each of the 50 separate Counts,
Petitioners incorporated all prior paragraphs of the
Complaint.

1

On July 9, 2018, former Defendant Eric
Spellman filed a Motion to Dismiss Petitioners’
Complaint, arguing in part that it was a shotgun
pleading because: (1) every count of the Complaint
adopted the allegations of all preceding counts,
making it virtually impossible for Spellman and the
District Court to determine which allegations the
Petitioners believed supported each count; (2) the
Complaint was replete with conclusory, vague, and
immaterial facts not tied to any particular cause of
action (i.e., clumsily attempting to tie Spellman to
Gotham Media Corporation (“GMC”), though he was
not alleged to be a part of it); (3) the Complaint did
not separate each cause of action or claim for relief
into separate counts; for example, by alleging in
Count 28 “legal fraud, fraud in the inducement &
alter-ego liability” as to multiple Defendants; and (4)
the Complaint asserted multiple claims against
multiple Defendants without specifying which
Defendant was allegedly responsible for which act or
omission.
On July 10, 2018, Respondents Guthrie and
TechCXO served their Answer. While Petitioners
suggest that by filing the Answers, Respondents
concede they could discern the Complaint, this
statement is inaccurate.
In fact, their First
Affirmative Defense was “Plaintiffs’ Complaint fails
to state a claim upon which relief can be granted.”
These Respondents admitted very limited facts, such
as their existence and place of business. However,
the phrase “without knowledge or information
sufficient to form a belief as to the truth of the
[allegations or remaining allegations]” appears 469
2

times in TechCXO’s Answer. The Answers of these
Respondents can hardly be construed as surgically
precise
responses
to
the
convoluted
and
compounding factual allegations of Petitioners’
Complaint and Amended Complaint.
On July 23, 2018, Respondent Robert Half
International (“RHI”) filed a Motion for Judgment on
the Pleadings, arguing in part that Petitioners’
Complaint was a shotgun pleading because: (1) each
count incorporated by reference the allegations of its
predecessors, leading to a situation where most of
the counts contained irrelevant factual allegations
and legal conclusions; and (2) the Complaint failed to
specify which Defendant was responsible for each act
alleged.
On August 7, 2018, TechCXO and Guthrie
filed a Motion for Judgment on the Pleadings, based
in part on their argument that “the Complaint is a
textbook shotgun pleading, which runs afoul of Fed.
R. Civ. P. 8(a)(2) and 10(b).”
Petitioners contend that “virtually all
respondents filed either Answers and/or [Federal]
Rule 12 motions to dismiss… without moving to
strike on 11th Circuit shotgun grounds” until
Johnson filed a motion to strike on August 8, 2018.
As illustrated above, this contention is patently
false.
After the motions to strike and motions for
judgment on the pleadings filed were fully briefed by
the parties, in an order authored by Judge Amy
3

Totenberg, the District Court found that Petitioners’
original Complaint was found to have several
deficiencies. Specifically, the District Court engaged
in the “painstaking task of wading through and
deciphering” the allegations, including the creation
of a chart of the counts, claims, and parties involved.
The District Court found the following deficiencies:
(a)
The Complaint incorporates by
reference 312 paragraphs of factual
allegations into each of its 50
enumerated causes of action;
(b)
each
cause
of
action
incorporates by reference each and
every prior cause of action;
(c)
many of its enumerated causes
of action are actually comprised of
multiple sub-causes of action;
(d)
each enumerated cause of
action is asserted against multiple
defendants; and
(e)
Plaintiffs essentially accuse all
defendants of being responsible for all
alleged acts and omissions, such that
no one defendant can identify what
exactly he or she did wrong.
56a.

Petition for Writ of Certiorari, Appendix, p.

The District Court not only pointed out the
defects in the original complaint, but also provided
specific, detailed guidance to correct the defects.
Petitioners were permitted to file an amended
4

complaint and were ordered to comply with the
following guidelines to avoid further deficiencies in
the amended complaint:
(i)
Petitioners may not incorporate
all 312 factual paragraphs into each
count, but instead indicate which of
the factual paragraphs are alleged to
support each individual count;
(ii)
Each individual count may only
be based on a single legal claim for
recovery (legal fraud, fraud in the
inducement
and
alter-ego
all
separated);
(iii) Plaintiffs could assert a single
count against multiple defendants
provided they identify the precise
conduct attributable to each defendant
separately in each count.
Petition for Writ of Certiorari, p. 8.
On April 23, 2019, Petitioners filed their First
Amended
Complaint.
Despite
dropping
six
Defendants, the First Amended Complaint ballooned
from 195 pages in the Original Complaint to 255
pages and from 578 numbered paragraphs in the
Original Complaint to 782 paragraphs in the First
Amended Complaint.
On May 13, 2019, Respondents Guthrie and
TechCXO filed their Answers and a Motion to
Dismiss, showing that, like the Original Complaint,
5

the First Amended Complaint was a shotgun
pleading. Other Respondents filed similar pleadings.
On January 7, 2020, in an order authored by
Judge J.P. Boulee, the District Court granted
Respondents’ Motions to the extent they sought
dismissal on shotgun pleading grounds and
dismissed Petitioners’ First Amended Complaint
with prejudice. The District Court found that the
First Amended Complaint was a quintessential
shotgun pleading and was not a short and plain
statement of the claim as required by pleading rules.
It was virtually impossible to know which of the over
200 factual allegations incorporated into each cause
of action were intended to support its claims for
relief. Specifically, the District Court found as
follows:
(1) Petitioners failed to follow its
instruction not to incorporate all 312
jurisdictional, venue related, party
identifying, and background factual
paragraphs of the original Complaint
into each count. Although Petitioners
did not technically incorporate all 312
factual paragraphs into each count,
they incorporated the entirety of the
250-paragraph, 104-page “The Facts”
section in the vast majority of the
First Amended Complaint’s 52 counts,
omitting only introductory facts
relating to party identity, jurisdiction,
and venue. Because Petitioners chose
to replead in this fashion, each count
6

was replete with factual allegations
that could not possibly be material to
that
specific
count,
and
any
allegations that were material were
buried beneath innumerable pages of
rambling irrelevancies.
(2) Petitioners failed to follow its
instruction that when a single count
was
brought
against
multiple
Respondents,
Petitioners
must
identify
the
precise
conduct
attributable to each Defendant.
(3) Despite its instruction, Petitioners
changed their original Complaint only
in minor ways and never attempted to
segregate the alleged wrongdoing of
the Respondents, with many of its
factual section paragraphs referring to
all Respondents or groupings of
Respondents.
The First Amended
Complaint’s pleading method was no
clearer than the original Complaint’s,
and it remained a shotgun pleading.
Petition for Writ of Certiorari, Appendix, pp.
99a-101a.
The District Court dismissed the First
Amended Complaint without leave to amend
because, although the District Court’s Order and
Respondents’ shotgun pleading motions provided
Petitioners with notice of the original Complaint’s
defects, Petitioners did not meaningfully amend
7

their original Complaint when given the opportunity
to do so.
On January 31, 2020, Petitioners filed a
Motion for Reconsideration, which was denied by the
District Court. They subsequently appealed to the
Eleventh Circuit Court of Appeals, which also denied
the appeal.
Petitioners now seek a Writ of Certiorari to
this Court, hoping for yet another opportunity to try
and
comply
with
well-established
pleading
requirements, despite having ignored express
instructions from and having squandered the
opportunity provided to them by the District Court.
REASONS FOR DENYING CERTIORARI
A petition for a writ of certiorari will be
granted only for compelling reasons. See Rule 10.
Here, the Petitioners have presented no such
compelling issue for this Court’s review. There is no
conflict between circuit courts on decisions involving
a matter of an important federal question. There is
no conflict between a decision of a circuit court and a
state court of last resort on a matter of an important
federal question. The Eleventh Circuit has not so far
departed from the accepted and usual course of
judicial proceedings so as to require this Court’s
intervention. This fact is confirmed, as noted above,
by this Court’s recent denial of Certiorari in a
shotgun pleading case from the Eleventh Circuit. On
May 3, 2021, this Court denied Certiorari in Huong
L. Tran and Richard W. Hazen, Petitioners v. City of
8

Holmes Beach, Florida; City Officials in Official
Capacity; Florida Department of Environmental
Protection; Department Officials in Official Capacity,
Respondents, 2021 WL 1725178 (Mem), (U.S., May 3,
2021) (cert. denied). There is no conflict regarding an
important federal question between a U.S. Court of
Appeals decision and other Supreme Court decisions.
Instead, the Petitioners are asking this Court to
dedicate precious and limited judicial resources to
reaffirming a basic, but essential, pillar of American
jurisprudence – a Plaintiff’s obligation to plead its
complaint in a clear and concise manner that is
sufficient to give a Defendant adequate notice of the
claims against it and the grounds upon which each
claim rests. Because the Eleventh Circuit has
repeatedly adhered to this paramount principle for
nearly four decades and its decisions are consistent
with the Federal Rules of Civil Procedure and this
Court’s previous holdings, this Court should deny
the Petitioner’s petition for certiorari.
I.

THE ELEVENTH CIRCUIT FOLLOWS
AND APPLIES THE STANDARDS SET
FORTH BY FEDERAL RULES OF CIVIL
PROCEDURE 8, 10, 12, AND THE
TENETS OF BELL ATLANTIC CORP. V.
TWOMBLY AND ASHCROFT V. IQBAL;
THUS
ITS
HOLDINGS
DO
NOT
CONFLICT WITH THE FEDERAL RULES
OF CIVIL PROCEDURE OR THE PRIOR
DECISIONS OF THIS COURT.

The essence of this dispute can be
summarized in one word: clarity. Petitioners’
9

Complaint and Amended Complaint were dismissed
by the District Court for failing to provide clear,
adequate notice to the Respondents in three
different ways:
1) The Complaint incorporated all factual
paragraphs into each count, failing to
indicate which facts support each count
alleged;
2) The Complaint incorporated multiple legal
claims and bases for recovery in one count;
3) The Complaint alleged a single count
against multiple defendants, failing to
identify the precise conduct attributable to
each defendant.
56a.

Petition for Writ of Certiorari, Appendix, p.

Although the Petitioners claim that the clarity
requested by the District Court somehow created a
“strict ‘form’ requirement” that deviates from this
Court’s Twombly/Iqbal standard, a review of the
applicable rules and standards shows that this is not
the case. Petitioners’ procedural deficiencies are
more fundamental.
a.

Federal Rules of Civil Procedure 8
and 10 Created the Blueprint for
Pleading Standards.

The primary purpose of Fed. R. Civ. P. 8 and
10(b) is “to give defendants fair notice of the claims
against them and the grounds supporting the
10

claims.” Cincinnati Life Ins. Co. v. Beyrer, 722 F.3d
939, 946 (7th Cir. 2013); see also Weiland v. Palm
Beach Cty. Sheriff's Office, 792 F.3d 1313, 1320 (11th
Cir. 2015). Fed. R. Civ. P. 8 sets forth the general
rules of pleading and specifies that a claim for relief
must contain a short and plain statement of the
grounds for the court’s jurisdiction, a short and plain
statement of the claim showing that the pleader is
entitled to relief, and a demand for the relief sought.
Fed. R. Civ. P. 8(a). Importantly, the Rule requires
that the statements contained in the pleading be
short and plain. This is consistent with the notion
that clarity in the initial pleading is essential to
providing adequate notice to the persons being sued
of the claims against them and the grounds for such
claims.
Fed. R. Civ. P. 10(b) provides:
A party must state its claims or
defenses in numbered paragraphs, each
limited as far as practicable to a single
set of circumstances. A later pleading
may refer by number to a paragraph in
an earlier pleading. If doing so would
promote clarity, each claim founded on
a separate transaction or occurrence –
and each defense other than a denial –
must be stated in a separate count or
defense.
Fed. R. Civ. P. 10(b).

11

Fed. R. Civ. P. 8 and 10 work in tandem to
ensure the required clarity is present to provide
adequate notice to the defendant. As the Seventh
Circuit noted, parties are required “to make their
pleadings straightforward, so that judges and
adverse parties need not try to fish a gold coin from
a bucket of mud.” U.S. ex rel. Garst v. LockheedMartin Corp., 328 F.3d 374, 378 (7th Cir. 2003). The
purpose of Fed. R. Civ. P. 8 is to eliminate prolixity
in pleading and to achieve brevity, simplicity, and
clarity. Knox v. First Sec. Bank of Utah, 196 F.2d
112, 117 (10th Cir. 1952). Further, the crux of the
Fed. R. Civ. P. 10(b) requirement to state claims in
separate counts is to enable litigants and the court
to clarify the issues at the outset of the case.
Williamson v. Columbia Gas & Elec. Corp., 186 F.2d
464, 469 (3d Cir. 1950). Courts have been clear that
the focus of Fed. R. Civ. P. 10(b) is to promote clarity
regarding the claims alleged and the facts which
support those claims, not mere repetition, as
“[m]ultiplicity does not always equate with clarity.”
Weiland v. Palm Beach County Sheriff’s Office, 792
F.3d 1313, 1331 at n.18 (11th Cir. 2015).
b.

This Court Used the Blueprint from
Fed. R. Civ. P. 8 and 10(b) to Create
a Framework for Litigants in Bell
Atlantic Corp. v. Twombly and
Ashcroft v. Iqbal (Twombly/Iqbal)

In 2007, this Court was presented with the
question of whether dismissal of a complaint was
proper where the complaint alleged that multiple
defendants engaged in parallel conduct unfavorable
12

to competition but did not include some factual
context suggesting agreement sufficient to suggest
conspiracy. Bell Atlantic Corp v. Twombly, 550 U.S.
544 (2007). In upholding the dismissal, this Court
expounded upon Fed. R. Civ. P. 8 and 10(b) to create
a more detailed framework for litigants in the
pleading stage, finding that the need at the pleading
stage for plausible allegations reflects the threshold
requirement of Fed. R. Civ. P. 8(a)(2) that the “plain
statement” possess enough heft to show that the
pleader is entitled to relief. Id., 550 U.S. at 557. A
plaintiff’s obligation to provide the grounds of his
entitlement to relief requires more than labels and
conclusions, and a formulaic recitation of the
elements of a cause of action will not do. Id., at 555
(internal citations omitted). This Court cautioned
that its holding did not require heightened fact
pleading of specifics, but only enough facts to state a
claim to relief that is plausible on its face. Id., at
570. Where a plaintiff has not “nudged their claims
across the line from conceivable to plausible,”
dismissal of the complaint is warranted. Id.
Two years later, this Court further explained
the interplay between Fed. R. Civ. P. 8 and 10(b) and
the federal pleading requirements in Ashcroft v.
Iqbal, 556 U.S. 662 (2009) in determining whether
the respondent plead sufficient facts to state a claim
for deprivation of certain constitutional rights. As an
initial matter, this Court found that Fed. R. Civ. P.
8 requires more than an unadorned, the defendantunlawfully-harmed-me accusation and does not
“unlock the doors of discovery for a plaintiff armed
with nothing more than conclusions.” Id., 556 U.S. at
13

678 - 679. Further, a complaint was deemed
improper if it made naked assertions devoid of
further factual enhancement, as “threadbare recitals
of the elements of a cause of action, supported by
mere conclusory statements, do not suffice.” Id., at
678 (internal citation omitted). While determining
whether a complaint states a plausible claim for
relief is a context-specific task that requires the
reviewing court to draw on its judicial experience
and common sense, this Court noted that a claim has
facial plausibility when the factual content pled
allows the court to draw the reasonable inference
that the defendant is liable for the alleged
misconduct. Id.
Petitioners misconstrue this as a limited issue
of whether Iqbal and Twombly have been
misapplied. The requirement that parties comply
with the federal pleading requirements of Fed. R.
Civ. P. 8 and 10 predates those cases. Indeed, since
1985, the Eleventh Circuit has rejected shotgun
pleadings more than fifty times relying on the
pleading blueprint established by Fed. R. Civ. P. 8
and 10. Davis v. Coca-Cola Bottling Co. Consol., 516
F.3d 955, 980 (11th Cir. 2008).
c.

Circuit Courts Throughout the
Country Have Implemented the
Framework
Outlined
in
Twombly/Iqbal to Ensure Pleadings
Are Sufficient to Provide the
Requisite Notice to Respondents.

14

The important guidance provided by both
Twombly and Iqbal did not serve to eradicate or
eviscerate Fed. R. Civ. P. 8 and 10(b). Instead, those
decisions provided a framework for lower courts to
use when examining and evaluating potentially
deficient pleadings that complemented and built
upon the blueprint set forth in the Federal Rules.
Likewise, district and circuit courts around the
country have used the framework outlined in these
cases to implement standards in their courts that
are consistent with these holdings and the Federal
Rules, and serve to ensure adequate notice is
provided to defendants regarding the claims against
them and the facts supporting such claims.
“District courts have the inherent authority to
manage their dockets and courtrooms with a view
toward the efficient and expedient resolution of
cases.” Dietz v. Bouldin, 136 S. Ct. 1885, 1888-89
(2016). The court's “exercise of an inherent power
must be a ‘reasonable response to the problems and
needs’ confronting the court's fair administration of
justice.” Id., at 1892 (internal citation omitted). A
district court must retain the power to insist upon
some specificity in pleading before allowing a
potentially massive factual controversy to proceed.
Twombly, 550 U.S. at 558. District courts also have
the ability and, indeed, the “supervisory obligation”
to act sua sponte and order repleading “when a
shotgun complaint fails to link adequately a cause of
action to its factual predicates.” Wagner v. First
Horizon Pharmaceutical Corp., 464 F.3d 1273, 1275
(11th Cir. 2006). This is exactly what occurred in the
District Court below where Judge Totenberg ordered
15

the Petitioners to replead and spelled out exactly
how it should be done. Petitioners should not be
heard in this Court to complain when they brought
dismissal on themselves by failing to heed the
District Court’s clear instructions regarding how to
correct their deficiencies.
“When a party indiscriminately incorporates
assertions from one count to another, for example, by
incorporating all facts or defenses from all previous
counts into each successive count, it can result in an
unnecessarily long and confusing pleading and
counts that contain irrelevant facts or defenses, and
it can prevent the opposing party from reasonably
being able to prepare a response or simply make the
burden of doing so more difficult.” 5A Charles Alan
Wright & Arthur R. Miller, Federal Practice and
Procedure § 1326 (4th ed. 2021). This is the core of
the defective nature of a shotgun pleading. The
blueprint established by Fed. R. Civ. P. 8 and 10,
and the framework for litigation developed in
Twombly/Iqbal, is manifest in the decisions
throughout the Circuit Courts.
While the Petitioners suggest that shotgun
pleadings are only pervasive in the Eleventh Circuit,
the reality is that shotgun pleadings have been
disfavored in federal courts around the country for
decades. While some circuits may use different
terminology to describe these pleadings, the issues
with these pleadings are the same. See, e.g., Gurman
v. Metro Housing and Redevelopment Authority, 842
F.Supp.2d 1151, 1153 (D. Minn. 2011) (defining a
“kitchen-sink” complaint as one in which a plaintiff
16

brings every conceivable claim against every
conceivable defendant). Where a complaint is
verbose, includes nearly identical counts, and fails to
clearly identify which counts are against which
defendant(s), the possible substance of the claim is
hidden in prolixity and is violative of Fed. R. Civ. P.
8. Kuehl v. F.D.I.C., 8 F.3d 905, 907 (1st Cir. 1993).
However, length alone is not a determinative factor.
Stanard v. Nygren, 658 F.3d 792, 798 (7th Cir. 2011)
(holding that length alone is generally insufficient to
justify rejecting a complaint). Indeed, a short
complaint can be just as defective. In Lee v. Ohio
Education Association, 951 F.3d 386 (6th Cir. 2020),
the Court found a one-sentence complaint that
included seven causes of action to be in violation of
both Fed. R. Civ. P. 8(a)(2) and Rule 10(b) because it
failed to connect specific facts or events with the
various causes of actions asserted and failed to
separate each cause of action or claim for relief into
separate counts. Id., 392 – 93.
Whether denominated shotgun pleadings,
kitchen sink complaints, or puzzle pleadings, such
pleadings are fundamentally improper because they
do not place the defendant on fair notice of the
plaintiff’s claim or the grounds upon which it rests.
Leatherman v. Tarrant Cnty. Narcotics Intelligence
& Coordination Unit, 507 U.S. 163, 168 (1993).
Further, such pleadings waste limited judicial
resources, as it is not the role of either the court or
the defendant to sort through a lengthy, poorly
drafted complaint and voluminous exhibits in order
to construct plaintiff’s causes of action. McNamara v.
Brauchler, 570 Fed.Appx. 741, 743 (10th Cir. 2014).
17

In an effort to limit the use of shotgun
pleadings and provide guidance to litigants, the
Eleventh Circuit has established categories of
recognized deficiencies in pleadings that might lead
to a finding that the pleading is defective. This
categorization of known issues is not an attempt to
discourage or prevent litigants from filing legitimate
claims in its court. Nor is it a circumvention of Fed.
R. Civ. P. 8 or 10, or a deviation from standards set
forth in Twombly and Iqbal. Instead, the Eleventh
Circuit endeavors to educate litigants and put them
on notice of potential pitfalls to avoid prior to filing a
pleading in its court. Simply put, this well-defined
body of jurisprudence is the Eleventh Circuit’s
practical implementation of the Twombly and Iqbal
framework.
A careful review of the categories identified by
the Eleventh Circuit shows that they are entirely
consistent with Fed. R. Civ. P. 8 and 10 and
Twombly and Iqbal. For instance, the first category
identified issues where multiple counts adopted the
allegations of all preceding counts. Petition for Writ
of Certiorari, p. 5. Such a pleading violates both Fed.
R. Civ. P. 8 and 10(b), as it essentially rolls all of the
allegations into each successive count, making it
unclear which facts support each claim. Where there
are multiple defendants, it also makes it unclear
which count is alleged against which defendant(s).
Category two includes pleadings “replete with
conclusory, vague and immaterial” facts that are not
connected to any particular cause of action. Id.
Pleadings that fall into this category violate Fed. R.
Civ. P. 8(a)(2)’s short and plain statement
18

requirement, as well as Iqbal’s caution against the
improper inclusion of “mere conclusory statements.”
Category three, which recognizes pleadings that fail
to separate different counts into separate causes of
action or claims for relief, is essentially a recitation
of Fed. R. Civ. P. 10(b). Id. Finally, category four
includes pleadings which assert multiple claims
against multiple defendants without specifying
which defendants are responsible for each act or
omission or which defendants the claim is against.
Id. This supports the underlying tenets of Fed. R.
Civ. P. 8 and 10 and Twombly and Iqbal, that the
defendant must have adequate notice of the claims
against him and the facts supporting such claims. As
such, the Eleventh Circuit’s categories do not
contradict, but rather implement, the blueprint and
framework set forth by Fed. R. Civ. P. 8 and 10 and
Twombly and Iqbal.
II.

THE PETITIONERS WERE AFFORDED
AN OPPORTUNITY TO CORRECT THE
DEFICIENCIES IN THEIR COMPLAINT,
BUT FAILED TO DO SO; THEREFORE,
DISMISSAL
OF
THE
AMENDED
COMPLAINT WAS PROPER.

When reviewing a case, the question is not
whether this Court, or whether the Court of Appeals,
would as an original matter have dismissed the
action; it is whether the District Court abused its
discretion in so doing. Nat’l Hockey League v.
Metropolitan Hockey Club, Inc., 427 U.S. 639, 641-42
(1976). Moreover, the standard of review for the
circuit court is not “whether we would have imposed
19

a more lenient penalty had we been sitting in the
trial judge’s place, but whether the trial judge
abused his discretion in imposing the penalty he
did.” Spiller v. U.S.V. Laboratories, Inc., 842 F.2d
535, 537 (5th Cir. 1988). Here, the District Court
Orders, issued by two different judges and affirmed
by the Eleventh Circuit Court of Appeals, do not
constitute an abuse of discretion.
A district court has the power to dismiss a
complaint with prejudice when a plaintiff fails to
comply with Fed. R. Civ. P. 8(a)(2)’s short and plain
statement requirement. Valkalis v. Shawmut Corp.,
925 F.2d 34, 36 (1st Cir. 1991). Where the lack of
organization and basic coherence renders a
complaint too confusing to determine the facts that
constitute the alleged wrongful conduct, dismissal is
an appropriate remedy. Stanard v. Nygren, 658 F.3d
792, 798 (7th Cir. 2011). Further, where a complaint
uses a kitchen sink approach and contains several
causes of action in a single claim, it violates Fed. R.
Civ. P. 10(b) and dismissal is appropriate. Cincinnati
Life Ins. Co. v. Beyrer, 722 F.3d 939, 946-47 (7th Cir.
2013). While courts often attempt to “discern the
kernel of the issues” in such complaints, they must
refrain from “assum[ing] the role of advocate for that
litigant.” Hart v. Salois, 605 Fed.Appx. 694, 698 (10th
Cir. 2015) (internal citations omitted) (affirming
dismissal of 231-page complaint containing 60
counts and 1227 paragraphs not based on the “sheer
length of [the] filing, the number of paragraphs, or
the number of claims” but due to Plaintiff’s “failure
to connect his 60 separate claims to the Complaint’s
hundreds of factual allegations” and “multiple
20

collective allegations against the defendants and his
corresponding failure to identify each individual
defendant’s culpable actions.”) Further, when the
district court provides detailed instructions as to
how to fix the problems and gives the plaintiff a
chance to amend the complaint, but the plaintiff fails
to comply with those instructions, dismissal with
prejudice is proper. Destfino v. Reiswig, 630 F.3d
952, 959 (9th Cir. 2011).
As is commonplace in other circuits, the
Eleventh Circuit requires that a district court give
the plaintiff one chance to remedy deficiencies
contained in a shotgun complaint. See, e.g., Vibe
Micro v. Shabanets, 878 F.3d 1291, 1295 (11th Cir.
2018). Further, the Eleventh Circuit takes a careful
and thoughtful approach to its obligation of
reviewing the facts and circumstances preceding a
potential dismissal of a shotgun pleading.
What matters is function, not form: the
key is whether the plaintiff had fair
notice of the defects and a meaningful
chance to fix them. If that chance is
afforded and the plaintiff fails to
remedy the defects, the district court
does not abuse its discretion in
dismissing the case with prejudice on
shotgun pleading grounds.
Jackson v. Bank of Am., N.A., 898 F.3d 1348,
1358 (11th Cir. 2018).

21

The Petitioners in this case not only had fair
notice of the defects in their Complaint but were also
provided detailed guidance as to how to remedy the
defects.
Indeed, the District Court provided a
detailed roadmap for the Petitioners to follow in
order to proceed with their case. Rather than follow
the District Court’s roadmap, Petitioners chose a
tortured path, ignoring the District Court’s
instruction at their peril. The Petitioners had a
meaningful chance to fix the defects but refused to
do so. As such, the District Court did not abuse its
discretion in dismissing the Petitioners’ claims. This
action was not only consistent with the holdings in
the Eleventh Circuit, but also with several other
circuits that have been faced with similar issues. As
the Seventh Circuit has aptly recognized, “[d]espite
receiving express directions about what they had to
do, counsel did not do it. At some point the train of
opportunity ends.” America’s Best Inns, Inc. v. Best
Inns of Abilene, L.P., 980 F.2d 1072, 1074 (7th Cir.
1992). Here, too, the Petitioners’ train of opportunity
should end.
CONCLUSION
Based upon the foregoing arguments and
authorities, and because neither the District Court
nor the Circuit Court abused its discretion in this
case, the Respondents, Todd Guthrie and TechCXO,
LLC, respectfully request that this Honorable Court
DENY the Petition for Writ of Certiorari.

22

Respectfully submitted,
SWIFT, CURRIE, McGHEE & HIERS, LLP
Roger E. Harris # 241120 *
Roger.harris@swiftcurrie.com
Rebecca E. Strickland # 315021*
Rebecca.strickland@swiftcurrie.com
Kori E. Eskridge # 314972
Kori.eskridge@swiftcurrie.com
1355 Peachtree Street, NE
Suite 300
Atlanta, Georgia 30309
(404) 874-8800
Attorneys for Respondents Todd Guthrie and
TechCXO, LLC
* Counsel of Record

23

